Audit Report




OIG-14-005
Report on the Bureau of the Fiscal Service Trust Fund
Management Branch Schedules for Selected Trust Funds as of
and for the Year Ended September 30, 2013
December 6, 2013




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF                                 December 6, 2013
INSPECTOR GENERAL




            MEMORANDUM FOR DAVID A. LEBRYK, COMMISSIONER
                           BUREAU OF THE FISCAL SERVICE

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Report on the Bureau of the Fiscal Service
                                    Trust Fund Management Branch Schedules for
                                    Selected Trust Funds as of and for the
                                    Year Ended September 30, 2013


            I am pleased to transmit the attached Report on the Bureau of the Fiscal Service
            Trust Fund Management Branch (TFMB) Schedule of Assets and Liabilities and the
            related Schedule of Activity of Selected Trust Funds as of and for the year ended
            September 30, 2013 (the Schedules). Under a contract monitored by the Office of
            Inspector General, KPMG LLP, an independent certified public accounting firm,
            performed an examination of TFMB’s assertions pertaining to the Schedules as of
            and for the year ended September 30, 2013. These Schedules relate solely to the
            functions performed by TFMB as custodian of the following Trust Funds’ monies and
            investments:

                    •   Federal Supplementary Medical Insurance Trust Fund,
                    •   Federal Hospital Insurance Trust Fund,
                    •   Highway Trust Fund,
                    •   Airport and Airway Trust Fund,
                    •   Hazardous Substance Superfund Trust Fund,
                    •   Leaking Underground Storage Tank Trust Fund,
                    •   Oil Spill Liability Trust Fund,
                    •   Harbor Maintenance Trust Fund,
                    •   Inland Waterways Trust Fund, and
                    •   South Dakota Terrestrial Wildlife Habitat Restoration
                        Trust Fund

            The contract required that the examination be performed in accordance with
            generally accepted government auditing standards and the attestation standards
            established by the American Institute of Certified Public Accountants.
Page 2


In its examination of TFMB’s assertions pertaining to the Schedules, KPMG LLP,
found that TFMB’s assertions (which are included in the Independent Accountants’
Report on Management’s Assertions) are fairly stated, in all material respects,
based on the measurement and disclosure criteria set forth in Note 1 to the
Schedules.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated
from an examination of assertions in accordance with generally accepted
government auditing standards, was not intended to enable us to express, and we
do not express, an opinion on TFMB’s assertions. KPMG LLP is responsible for the
attached independent accountants’ report dated December 5, 2013, and the
conclusions expressed in the report. However, our review disclosed no instances
where KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment

cc:   Richard L. Gregg
      Fiscal Assistant Secretary
          U. S. DEPARTMENT OF THE TREASURY
BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT
                       BRANCH
          Schedules and Notes for Selected Trust Funds

        As of and for the Year Ended September 30, 2013
                         U.S. DEPARTMENT OF THE TREASURY
           BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT BRANCH


                                              Table of Contents



                                                                       Page

I     Independent Accountants’ Report on Management’s Assertions         1

II    Schedule of Assets and Liabilities of Selected Trust Funds         4

III   Schedule of Activity of Selected Trust Funds                       7

IV    Notes to the Schedules of Selected Trust Funds                    10
I.   INDEPENDENT ACCOUNTANTS’ REPORT ON
          MANAGEMENT’S ASSERTIONS
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                 Independent Accountants’ Report on Management’s Assertions


Inspector General, U.S. Department of the Treasury, and
Commissioner, Bureau of the Fiscal Service:

We have examined the following assertions of the Trust Fund Management Branch (TFMB) of the
Bureau of the Fiscal Service (Fiscal Service) of the U.S. Department of the Treasury (Treasury) with
respect to the applicable accounts of each trust fund included on the accompanying Schedule of Assets
and Liabilities of Selected Trust Funds as of September 30, 2013, and the related Schedule of Activity
of Selected Trust Funds for the year then ended (Schedules):

•   Fund balance with Treasury is reported based on the balance reported by Treasury’s Fiscal Service
    in the Government-wide Accounting’s (GWA) Central Accounting and Reporting System (CARS)
    Account Statement and reconciling transactions identified and recorded by TFMB.
•   Interest receivables are calculated and reported by TFMB based on the investment terms received
    and recorded by TFMB from Fiscal Service’s Federal Investments Branch (FIB) in the investment
    confirmations and monthly statements of account.
•   Other receivables are reported based on amounts received and recorded by TFMB from the
    program agencies responsible for the respective trust fund activity.
•   Investments, net are calculated and reported at net cost based on the cost and premium/discount
    amounts reported to TFMB in the investment confirmations and monthly Statements of Account
    received from FIB.
•   The market value of investments is calculated and reported by TFMB using the recorded
    investment cost and the market rates published in the September 30, 2013, Treasury Quote file and
    unrealized gains and losses are calculated and reported by TFMB as the difference between the
    market value and the investments, net.
•   Program agency equity is calculated and reported by TFMB based on the assets of the trust fund.
•   Available program agency equity is reported based on amounts received and recorded by TFMB
    from the program agencies responsible for the respective trust fund activity.
•   Other program agency equity is calculated and reported by TFMB as the difference between the
    assets of the trust fund and the available program agency equity received and recorded by TFMB
    from the program agencies responsible for the respective trust fund activity.
•   Interest revenue is reported based on the amounts received and recorded by TFMB from FIB in the
    monthly statements of account and accrued interest and amortization calculated by TFMB.
    Amortization of any premiums and discounts on investments is calculated and reported by TFMB
    based on the investment terms reported to TFMB by FIB using the straight-line method for


                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
    investments with a term equal to or less than one year and using the level yield method which
    approximates the interest method for investments with a term of greater than one year.
•   Penalties, fines, administrative fees, transfers in from program agencies, premiums, cost recoveries,
    and other income are reported based on the amounts received and recorded by TFMB from Fiscal
    Service’s GWA and the program agencies responsible for the respective trust fund activity.
•   Tax revenues, tax adjustments, and tax refunds are reported based on the amounts received and
    recorded by TFMB from Treasury’s Office of Tax Analysis, Internal Revenue Service, Fiscal
    Service’s GWA, and U.S. Customs and Border Protection.
•   Transfers to program agencies are calculated and reported based on the disbursement request
    amounts received and recorded by TFMB from the program agencies responsible for the respective
    trust fund activity and the disbursement amounts returned and recorded by TFMB from the
    program agencies responsible for the respective trust fund activity.
•   Reimbursements to Fiscal Service and the General Fund are reported based on the disbursement
    request amounts received and recorded by TFMB from various Fiscal Service offices.

TFMB’s management is responsible for the assertions. Our responsibility is to express an opinion on
these assertions based on our examination. Our examination was conducted in accordance with
attestation standards established by the American Institute of Certified Public Accountants (AICPA)
and the standards applicable to attestation engagements contained in Government Auditing Standards
issued by the Comptroller General of the United States and, accordingly, included examining on a test
basis, evidence supporting the assertions stated above and performing such other procedures as we
considered necessary in the circumstances. We believe that our examination provides a reasonable
basis for our opinion.

In our opinion, TFMB’s assertions referred to above relating to the applicable accounts of each trust
fund reported on the accompanying Schedule of Assets and Liabilities of Selected Trust Funds as of
September 30, 2013, and the related Schedule of Activity of Selected Trust Funds for the year then
ended, are fairly stated, in all material respects, based on the measurement and disclosure criteria set
forth in Note 1 to the Schedules of Selected Trust Funds.

This report is intended solely for the information and use of the management of the Bureau of the
Fiscal Service, program agencies responsible for their respective trust fund activity, the U.S.
Department of the Treasury Office of Inspector General, the Office of Management and Budget, the
Government Accountability Office, and the U.S. Congress, and is not intended to be and should not be
used by anyone other than these specified parties.



December 5, 2013




                                                   3
II. SCHEDULE OF ASSETS AND LIABILITIES OF
           SELECTED TRUST FUNDS
                                             U.S. DEPARTMENT OF THE TREASURY
                               BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT BRANCH
                                             Schedule of Assets and Liabilities of Selected Trust Funds
                                                             As of September 30, 2013


                                          Federal
                                       Supplementary            Federal                                                            Hazardous
                                          Medical               Hospital                                        Airport            Substance
                                         Insurance             Insurance                 Highway              and Airway           Superfund
                                        Trust Fund             Trust Fund               Trust Fund            Trust Fund           Trust Fund
Assets:
  Fund balance with Treasury       $       30,645,556    $         3,229,444    $       2,445,352,190    $      964,254,924    $        (433,133)  
  Interest receivables                    556,637,480          2,221,137,706                —                    47,710,092            3,850,661   
  Other receivables                     7,153,579,029          1,494,550,956                —                     —                    —    
  Investments, net                     67,385,277,000        206,009,878,000            1,956,739,788        11,807,771,000        3,212,690,403   
       Total assets                $   75,126,139,065    $   209,728,796,106    $       4,402,091,978    $   12,819,736,016    $   3,216,107,931   
Liabilities:
  Program agency equity:
     Available                     $   32,798,813,076    $    26,208,192,213    $       4,402,091,978    $    4,444,059,890    $   3,028,841,352   
     Other                             42,327,325,989        183,520,603,893                —                 8,375,676,126          187,266,579   
     Total program agency equity       75,126,139,065        209,728,796,106            4,402,091,978        12,819,736,016        3,216,107,931   
       Total liabilities           $   75,126,139,065    $   209,728,796,106    $       4,402,091,978    $   12,819,736,016    $   3,216,107,931   




                                                                          5                                                              (Continued)
                                             U.S. DEPARTMENT OF THE TREASURY
                               BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT BRANCH
                                              Schedule of Assets and Liabilities of Selected Trust Funds
                                                               As of September 30, 2013

                                                                                                                                   South Dakota
                                             Leaking                                                                                Terrestrial
                                          Underground               Oil Spill              Harbor                Inland           Wildlife Habitat
                                          Storage Tank              Liability             Maintenance          Waterways            Restoration
                                           Trust Fund              Trust Fund             Trust Fund           Trust Fund           Trust Fund
Assets:
  Fund balance with Treasury         $        2,924,690    $           9,071,757    $        97,373,963    $     1,896,032    $        —    
  Interest receivables                        2,439,809               10,232,442             25,556,906          —                       658,176   
  Investments, net                        1,358,089,973            3,267,172,752          7,813,105,449         38,881,819           120,711,239   
        Total assets                 $    1,363,454,472    $       3,286,476,951    $     7,936,036,318    $    40,777,851    $      121,369,415   


Liabilities:
  Program agency equity:
     Available                       $       85,857,942    $         197,865,594    $        —             $     2,928,285    $       11,369,415   
     Other                                1,277,596,530            3,088,611,357          7,936,036,318         37,849,566           110,000,000   
     Total program agency equity          1,363,454,472            3,286,476,951          7,936,036,318         40,777,851           121,369,415   
        Total liabilities            $    1,363,454,472    $       3,286,476,951    $     7,936,036,318    $    40,777,851    $      121,369,415   


See accompanying notes to the schedules of selected trust funds.




                                                                              6
III. SCHEDULE OF ACTIVITY OF
      SELECTED TRUST FUNDS
                                                  U.S. DEPARTMENT OF THE TREASURY
                                    BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT BRANCH
                                                      Schedule of Activity of Selected Trust Funds
                                                        For the Year Ended September 30, 2013


                                                 Federal
                                              Supplementary              Federal                                                            Hazardous
                                                 Medical                 Hospital                                        Airport            Substance
                                                Insurance               Insurance               Highway                and Airway           Superfund
                                               Trust Fund              Trust Fund              Trust Fund              Trust Fund           Trust Fund
Revenues:
  Interest revenue                        $     2,425,031,636    $     9,565,073,924    $            6,424,851    $      233,555,241    $      23,809,530   
  Penalties, fines, and
     administrative fees                           —                   2,086,651,832            15,454,278                 —                    3,477,995   
  Transfers in from program agencies          231,562,482,655          1,676,510,507         5,901,880,481                 —                1,087,088,202   
  Tax revenues and adjustments                  3,416,223,278        227,211,273,502        36,447,805,289            12,871,834,769               45,682   
  Tax refunds                                      —                      —                      —                       (18,274,974)           —    
  Premiums                                     65,239,559,846          3,657,361,426             —                         —                    —    
  Cost recoveries                                  —                      —                      —                         —                   34,986,389   
  Other income                                  8,669,756,033             31,079,768             —                         —                    —    
             Total revenues                   311,313,053,448        244,227,950,959        42,371,564,899            13,087,115,036        1,149,407,798   
Disposition of revenues:
  Transfers to program agencies               308,491,285,714        266,691,255,475        49,690,418,902            11,184,130,639        1,240,153,655   
  Reimbursements to Fiscal Service
     and the General Fund                             478,337            130,104,560                 —                     —                    —    
             Total disposition of
               revenues                       308,491,764,051        266,821,360,035        49,690,418,902            11,184,130,639        1,240,153,655   
             Net increase/(decrease)
               in program agency
               equity                     $     2,821,289,397    $   (22,593,409,076)   $    (7,318,854,003)   $       1,902,984,397    $     (90,745,857)  




                                                                           8                                                                      (Continued)
                                                   U.S. DEPARTMENT OF THE TREASURY
                                     BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT BRANCH
                                                         Schedule of Activity of Selected Trust Funds
                                                           For the Year Ended September 30, 2013


                                                                                                                                          South Dakota
                                                       Leaking                                                                             Terrestrial
                                                    Underground             Oil Spill             Harbor                Inland           Wildlife Habitat
                                                    Storage Tank            Liability            Maintenance          Waterways            Restoration
                                                     Trust Fund            Trust Fund            Trust Fund           Trust Fund           Trust Fund
Revenues:
  Interest revenue                              $        4,904,012    $      17,322,988    $        96,680,874    $        42,910    $        3,236,166   
  Penalties, fines, and
     administrative fees                                —                   402,451,172              —                  —                     —    
  Transfers in from program agencies                    —                     —                      —                  —                     —    
  Tax revenues and adjustments                        162,166,361           409,315,695          1,523,303,569         75,110,280             —    
  Cost recoveries                                       —                   125,353,027              —                  —                     —    
  Other income                                          —                     —                      —                  —                     —    
              Total revenues                          167,070,373           954,442,882          1,619,984,443         75,153,190             3,236,166   
Disposition of revenues:
  Transfers to program agencies                       116,000,000           272,028,307            843,221,015         87,643,584             9,500,000   
  Reimbursements to Fiscal Service
     and the General Fund                                —                        165,000               —               —                     —    
              Total disposition of
                revenues                              116,000,000           272,193,307            843,221,015         87,643,584             9,500,000   
              Net increase/(decrease)
                in program agency
                equity                          $       51,070,373    $     682,249,575    $       776,763,428    $   (12,490,394)   $       (6,263,834)  


See accompanying notes to the schedules of selected trust funds.




                                                                              9
IV. NOTES TO THE SCHEDULES OF
      SELECTED TRUST FUNDS
                          U.S. DEPARTMENT OF THE TREASURY
            BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT BRANCH
                                 Notes to the Schedules of Selected Trust Funds
                                               September 30, 2013



(1)   Summary of Significant Accounting Policies
      (a)   Reporting Entity
            The accompanying Schedule of Assets and Liabilities of Selected Trust Funds and related Schedule
            of Activity of Selected Trust Funds (Schedules) pertain to the aspects of certain Treasury-managed
            Trust Funds that are serviced by the Trust Fund Management Branch (TFMB) of the Bureau of the
            Fiscal Service (Fiscal Service) of the U.S. Department of the Treasury (Treasury). The Trust Funds
            were created by legislation enacted by the U.S. Congress.

            TFMB acts as a service organization which processes receipts, disbursements, and transfers related
            to the trust funds based upon information received and recorded by TFMB from Treasury's Office of
            Tax Analysis (OTA) and the Internal Revenue Service (IRS), U.S. Customs and Border Protection,
            the program agencies responsible for their trust fund activity, and other Treasury bureaus and offices.
            As part of its functions, Fiscal Service also manages the investments, maintains related accounting
            records and supporting documentation, and reports financial activity. The financial activity reported
            in these Schedules is limited to the activities performed by TFMB.

            The program agencies are responsible for administering, regulating, and monitoring the program
            activities funded by the trust funds. The program agencies make all decisions regarding dispositions
            from the trust funds. As such, these Schedules do not include information regarding the ultimate
            disposition of amounts transferred from the trust funds to the program agencies.

      (b)   Basis of Presentation
            The Schedules have been prepared to report the assets and liabilities of the trust funds under the
            function performed by TFMB, and the related activity, in accordance with the measurement and
            criteria discussed below.

      (c)   Basis of Accounting
            The Schedules are prepared using the accrual basis of accounting in accordance with U.S generally
            accepted accounting principles.

      (d)   Fund Balance with Treasury
            The Trust Funds do not maintain cash in commercial bank accounts. Treasury processes cash
            receipts and disbursements. Fund Balance with Treasury represents net revenue, disposition of
            revenue, and investment activity. Fund balance with Treasury is reported based on the balance
            reported by Treasury’s Fiscal Service in the Government-wide Accounting’s (GWA) Central
            Accounting and Reporting System (CARS) Account Statement and reconciling transactions
            identified and recorded by TFMB. A transfer to a program agency caused a fund to report a negative
            fund balance with Treasury (see Note lk).




                                                      11                                              (Continued)
                    U.S. DEPARTMENT OF THE TREASURY
      BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT BRANCH
                             Notes to the Schedules of Selected Trust Funds
                                          September 30, 2013



(e)   Interest Receivables
      Interest receivables are calculated and reported by TFMB based on the investment terms received
      and recorded by TFMB from Fiscal Service’s Federal Investments Branch (FIB) in the investment
      confirmations and monthly statements of account.

(f)   Other Receivables
      Other receivables are reported based on amounts received and recorded by TFMB from the program
      agencies responsible for the respective trust fund activity.

(g)   Investments, Net
      Pursuant to authorizing legislation, the Secretary of the Treasury shall invest, at the direction of the
      program agencies, such portion of the trust fund balances as is not, in the judgment of the program
      agencies, necessary to meet current withdrawals. Such investments shall be in non-marketable par
      value or non-marketable market-based securities as authorized by legislation. Par value securities are
      special issue bonds or certificates of indebtedness that bear interest determined by legislation or the
      Treasury. Market-based securities are Treasury securities that are not traded on any securities
      exchange, but mirror the prices of marketable securities with similar terms. Both par value and
      market-based securities are issued and redeemed by FIB.

      TFMB follows Treasury fiscal investment policy guidelines. TFMB determines the term of the
      securities purchased based on direction provided by the program agencies. The securities are
      acquired and held in the name of the Secretary of the Treasury for the trust funds. The interest on and
      proceeds from the sale or redemption of any security held for the trust funds are credited to the
      appropriate trust fund. Investments are selected for liquidation based on the following order: earliest
      maturity date, lowest prevailing interest rate, and first security in first security out.

      Investments, net are calculated and reported at net cost based on the cost and premium/discount
      amounts reported to TFMB in the investment confirmations and monthly statements of account
      received from FIB. The market value of investments is calculated and reported by TFMB using the
      recorded investment cost and the market rates published in the September 30, 2013 Treasury Quote
      file (the last work day of the fiscal year) and unrealized gains and losses are calculated and reported
      by TFMB as the difference between the market value and the investments, net. The investments are
      exposed to various risks such as interest rate and market risks. Such risks, and the resulting
      investment market values, may be influenced by changes in economic conditions and market
      perceptions and expectations. Accordingly, it is at least reasonably possible that material changes to
      the market values of the investments will occur in the near term.

(h)   Available and Other Program Agency Equity
      Program agency equity is calculated and reported by TFMB based on the assets of the trust fund.
      Program agency equity consists of available and other program agency equity.

      Available program agency equity represents the amount of program agency equity that may be
      transferred as of September 30, 2013 to the program agencies at the request of the program agencies.

                                                 12                                              (Continued)
                    U.S. DEPARTMENT OF THE TREASURY
      BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT BRANCH
                           Notes to the Schedules of Selected Trust Funds
                                         September 30, 2013



      Available program agency equity is reported based on amounts received and recorded by TFMB
      from the program agencies responsible for the respective trust fund activity.

      The remaining balance of program agency equity is reported as other program agency equity. Other
      program agency equity is calculated and reported by TFMB as the difference between the assets of
      the trust fund and the available program agency equity received and recorded by TFMB from the
      program agencies responsible for the respective trust fund activity.

(i)   Interest Revenue
      Interest revenue is reported based on the amounts received and recorded by TFMB from FIB in the
      monthly statements of account and accrued interest and amortization calculated by TFMB.
      Amortization of any premiums and discounts on investments is calculated and reported by TFMB
      based on the investment terms reported to TFMB by FIB using the straight-line method for
      investments with a term equal to or less than one year and using the level yield method which
      approximates the interest method for investments with a term of greater than one year.

(j)   Revenues
      Pursuant to authorizing legislation, revenue activity recorded in the trust funds consists primarily of
      interest, penalties, fines, administrative fees, transfers in from program agencies, tax revenues, tax
      adjustments, tax refunds, premiums, cost recoveries, and other income, which are transferred from
      the General Fund of the Treasury or from program agencies to the Trust Funds.

      Penalties, fines, administrative fees, transfers in from program agencies, premiums, cost recoveries,
      and other income are reported based on the amounts received and recorded by TFMB from Fiscal
      Service’s GWA and the program agencies responsible for the respective trust fund activity.

      Tax revenues, tax adjustments, and tax refunds are reported based on the amounts received and
      recorded by TFMB from Treasury’s Office of Tax Analysis (OTA), Internal Revenue Service, Fiscal
      Service’s GWA, and U.S. Customs and Border Protection. OTA estimates the tax revenues each
      month based on projected tax receipts and provides the estimates to Fiscal Service’s Budget Reports
      Division. Fiscal Service’s Budget Reports Division transfers the amount of estimated taxes to the
      trust fund accounts. The IRS or program agencies generally certify the tax revenues within two
      quarters after the taxes are estimated (i.e., 1st quarter estimate is certified in the 3rd quarter) and
      provide this certification to Fiscal Service’s Budget Reports Division. Fiscal Service’s Budget
      Reports Division calculates the tax adjustment as the difference between the taxes estimated by OTA
      and taxes certified by the IRS/program agencies and adjusts the trust fund accounts accordingly.
      Fiscal Service’s Budget Reports Division reports the tax adjustments to TFMB. As a result of the
      timing of the certifications, the Schedule of Activity includes certified tax revenues (i.e. actual tax
      revenues) for the first three quarters of the fiscal year and estimated tax revenues for the last quarter
      of the fiscal year.

(k)   Transfers to Program Agencies
      Dispositions from the Trust Funds are made in accordance with the authorizing legislation to the
      program agencies, which are responsible for the ultimate disposition of such funds, to cover program
                                                 13                                               (Continued)
                          U.S. DEPARTMENT OF THE TREASURY
            BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT BRANCH
                                 Notes to the Schedules of Selected Trust Funds
                                               September 30, 2013



            administration and related costs as defined by law. Transfers to program agencies are calculated and
            reported based on the disbursement request amounts received and recorded by TFMB from the
            program agencies responsible for the respective trust fund activity and the disbursement amounts
            returned and recorded by TFMB from the program agencies responsible for the respective trust fund
            activity.

      (l)   Reimbursements to Treasury Bureaus and the General Fund
            In the case of certain trust funds, Fiscal Service is authorized by law to receive direct reimbursement
            from the trust funds for certain administrative expenses. Also, the Secretary of the Treasury is
            directed by law to charge trust funds to reimburse the General Fund for administrative expenses
            incurred by other Treasury bureaus in performing activities related to administering the trust funds.
            These reimbursement amounts are determined by Treasury based on its assessment of the estimated
            cost of the services provided. Reimbursements to Fiscal Service and the General Fund are reported
            based on the disbursement request amounts received and recorded by TFMB from various Fiscal
            Service offices.

(2)   Investments, Net
      Federal Supplementary Medical Insurance Trust Fund
      Investments at September 30, 2013, are non-marketable, par value intra governmental securities with a cost
      of $67,385,277,000.

      Federal Hospital Insurance Trust Fund
      Investments at September 30, 2013, are non-marketable, par value intra governmental securities with a cost
      of $206,009,878,000.

      Highway Trust Fund
      The investments at September 30, 2013, are non-marketable, market-based intra governmental securities as
      follows:

                                                                   Net
                                                               amortized
                                                              (premium)/              Net            Market
                                              Cost              discount          investments        value
      One-day certificates            $   1,956,739,788 $          —          $   1,956,739,788 $ 1,956,739,788


       Total                          $   1,956,739,788 $           —         $   1,956,739,788 $ 1,956,739,788




                                                      14                                              (Continued)
                    U.S. DEPARTMENT OF THE TREASURY
      BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                        September 30, 2013



Airport and Airway Trust Fund
Investments at September 30, 2013, are non-marketable, par value intra governmental securities with a cost
of $11,807,771,000.

Hazardous Substance Superfund Trust Fund
Investments at September 30, 2013, are non-marketable, market-based intra governmental securities as
follows:

                                                           Net
                                                       amortized
                                                      (premium)/               Net            Market
                                      Cost              discount           investments         value
 One-day certificates          $    560,422,262 $                — $         560,422,262 $   560,422,262
 Notes                             2,711,613,503       (59,345,361)       2,652,268,142   2,670,525,389
             Total             $   3,272,035,765 $     (59,345,361) $     3,212,690,404 $ 3,230,947,651

The net unrealized gain on investments is $18,257,247 at September 30, 2013.

Leaking Underground Storage Tank Trust Fund
The investments at September 30, 2013, are non-marketable, market-based intra governmental securities as
follows:

                                                             Net
                                                         amortized
                                                        (premium)/              Net            Market
                                       Cost               discount          investments        value
One-day certificates           $      676,275,730 $                — $        676,275,730 $ 676,275,730
Notes                                 714,177,000        (32,362,757)         681,814,243     685,450,917
               Total           $    1,390,452,730 $      (32,362,757) $     1,358,089,973 $ 1,361,726,647

The net unrealized gain on investments is $3,636,674 at September 30, 2013.




                                               15                                            (Continued)
                   U.S. DEPARTMENT OF THE TREASURY
     BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                       September 30, 2013



Oil Spill Liability Trust Fund
The investments at September 30, 2013, are non-marketable, market-based intra governmental securities as
follows:



                                                           Net
                                                       amortized
                                                      (premium)/          Net               Market
                                       Cost             discount      investments            value
One-day certificates             $   926,983,795 $                — $  926,983,795 $       926,983,795
Bills and notes                    2,377,861,323       (37,672,366)   2,340,188,957   2,354,906,212
              Total              $ 3,304,845,118 $     (37,672,366) $ 3,267,172,752 $ 3,281,890,007


The net unrealized gain on investments is $14,717,255 at September 30, 2013.

Harbor Maintenance Trust Fund

The investments at September 30, 2013, are non-marketable, market-based intra governmental securities as
follows:

                                                          Net
                                                      amortized
                                                     (premium)/            Net              Market
                                       Cost            discount        investments           value
One-day certificates             $   654,542,076 $              — $      654,542,076 $     654,542,076
Bills and notes                    7,286,109,757   (127,546,383)   7,158,563,374   7,258,742,739
              Total              $ 7,940,651,833 $ (127,546,383) $ 7,813,105,450 $ 7,913,284,816


The net unrealized gain on investments is $100,179,366 at September 30, 2013.




                                              16                                            (Continued)
                         U.S. DEPARTMENT OF THE TREASURY
           BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT BRANCH
                                 Notes to the Schedules of Selected Trust Funds
                                              September 30, 2013



      Inland Waterways Trust Fund

      The investments at September 30, 2013, are non-marketable, market-based intra governmental securities as
      follows:

                                                                  Net
                                                              amortized
                                                             (premium)/               Net          Market
                                             Cost              discount           investments      value
      One-day certificates           $      38,881,819 $                  — $       38,881,819 $   38,881,819


                   Total             $      38,881,819 $               — $          38,881,819 $    38,881,819



      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund

      The investments at September 30, 2013, are non-marketable, market-based intra governmental securities as
      follows:

                                                                  Net
                                                              amortized
                                                             (premium)/               Net          Market
                                             Cost              discount           investments       value
      One-day certificates           $      11,317,220 $                  — $       11,317,220 $   11,317,220
      Notes                                109,135,903             258,116         109,394,019     114,860,800
                   Total             $     120,453,123 $           258,116 $       120,711,239 $   126,178,020


      The net unrealized gain on investments is $5,466,781 at September 30, 2013.

(3)   Change in Program Agency Equity
      Federal Supplementary Medical Insurance Trust Fund
      Change in program agency equity for the year ended September 30, 2013, is:

                           Balance, beginning of year                 $     72,304,849,668
                           Increase in balance                               2,821,289,397
                           Balance, end of year                       $     75,126,139,065


      Federal Hospital Insurance Trust Fund
      Change in the program agency equity for the year ended September 30, 2013, is:


                                                        17                                         (Continued)
                   U.S. DEPARTMENT OF THE TREASURY
     BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                       September 30, 2013



                    Balance, beginning of year                  $ 232,322,205,182
                    Decrease in balance                           (22,593,409,076)
                    Balance, end of year                        $ 209,728,796,106




Highway Trust Fund
Change in program agency equity for the year ended September 30, 2013, is:

                    Balance, beginning of year                   $   11,720,945,981
                    Decrease in balance                              (7,318,854,003)
                    Balance, end of year                         $     4,402,091,978


The program agency equity available as of September 30, 2013 is $4,402,091,978. However, Congress has
authorized appropriations in excess of current available trust fund assets that amount to $48,028,153,027
after considering amounts already transferred to the program agency.

Airport and Airway Trust Fund

Change in program agency equity for the year ended September 30, 2013, is:

                    Balance, beginning of year                   $   10,916,751,619
                    Increase in balance                               1,902,984,397
                    Balance, end of year                         $   12,819,736,016


Hazardous Substance Superfund Trust Fund
Change in program agency equity for the year ended September 30, 2013, is:

                   Balance, beginning of year                    $    3,306,853,788
                   Decrease in balance                                 (90,745,857)
                   Balance, end of year                          $    3,216,107,931




                                                 18                                          (Continued)
                   U.S. DEPARTMENT OF THE TREASURY
     BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                       September 30, 2013



Leaking Underground Storage Tank Trust Fund
Change in program agency equity for the year ended September 30, 2013, is:

                    Balance, beginning of year                   $     1,312,384,099
                    Increase in balance                                   51,070,373
                    Balance, end of year                         $     1,363,454,472




Oil Spill Liability Trust Fund
Change in program agency equity for the year ended September 30, 2013, is:

                   Balance, beginning of year                   $     2,604,227,376
                   Increase in balance                                  682,249,575
                   Balance, end of year                         $     3,286,476,951




Harbor Maintenance Trust Fund
Change in program agency equity for the year ended September 30, 2013, is:

                    Balance, beginning of year                  $     7,159,272,890
                    Increase in balance                                 776,763,428
                    Balance, end of year                        $     7,936,036,318




Inland Waterways Trust Fund
Change in program agency equity for the year ended September 30, 2013, is:

                    Balance, beginning of year                  $        53,268,245
                    Decrease in balance                                (12,490,394)
                    Balance, end of year                        $        40,777,851




                                                 19                                    (Continued)
                         U.S. DEPARTMENT OF THE TREASURY
           BUREAU OF THE FISCAL SERVICE TRUST FUND MANAGEMENT BRANCH
                                Notes to the Schedules of Selected Trust Funds
                                              September 30, 2013



      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
      Change in program agency equity for the year ended September 30, 2013, is:

                           Balance, beginning of year                  $      127,633,249
                           Decrease in balance                                 (6,263,834)
                           Balance, end of year                        $      121,369,415




(4)   Related Parties
      TFMB, on behalf of the Secretary of the Treasury, compiles amounts deposited into the trust funds, invests
      receipts in Treasury securities, redeems securities and transfers funds to the program agencies, maintains
      accounting records for receipts and disbursements of the trust funds, and reports trust fund financial
      activity to the program agencies and other interested parties. The program agencies, OTA, IRS, and Fiscal
      Service’s Budget Reports Division determine the amounts to be deposited in the trust funds. The program
      agencies determine the disposition of the trust fund balances.




                                                     20
